                                           UNITED STATES DEPARTMENT OF EDUCATION 

                                                OFFICE OF INSPECTOR GENERAL 

                                                                      REGlONV 

                                                              III NORTH CANAL. SUITE 940 

                                                                CHICAGO. ILLINOIS 60606 


                                                                    FAX: (312) 353-0244
     Audit                                                                                                                                     Investigation
(312) 886-6503                                                                                                                                (312) 353-789\




                                                                                     Control Number ED-OIG/A05-D0028


                                                                                                         NOV 1 9 2003
                 Mr. Nasuhi Yurt, Executive Director 

                 Daisy Education Corporation (d/b/a Sonoran Science Academy) 

                 2131 West rna Road, Building G 

                 Tucson, AZ 85741 


                 Dear Mr. Yurt:

                 This Final Audit Report presents the results of our audit of the Sonoran Science
                 Academy's (Academy) use of U.S. Department of Education (ED) funds for the period
                 August 1, 2001, through July 31, 2002 (project period). The objective of our audit was to
                 determine if the Academy expended ED funds according to the law and applicable
                 regulations.

                 Our audit disclosed that the Academy did not expend Public Charter Schools Program
                 (PCSP) rant funds in accordance with the law and regulations. The Academy charged
                 $20,519 of the $158,500 in PCSP funds it received for the project period for costs that
                 were unallowable.

                 We provided the Academy with a draft of this report. The Academy concurred that it did
                 not have adequate policies and procedures in place to provide reasonable assurance that
                 PCSP funds were expended for allowable activities during our audit period. However,
                 the Academy generally did not concur with the finding and recommendation to refund
                 PCSP funds to ED. The Academy did not agree that the costs it paid with PCSP funds
                 were unallowable, and it provided a detailed justification explaining why it considered
                 the costs allowable. Our review of the Academy's explanation and supporting
                 documentation caused us to accept some costs that we initially identified as being
                 unallowable. The Academy's comments are summarized after Finding No. I and
                 included in their entirety a~ an attachment to this report.




                 I The Academy charged $159,485 to the PCSP grant, $985 more than the $158,500 it had available for the
                 project period.


                        Our mission Is to promote the efficiency, effectiveness, and integrity of the Department's programs and operations.
Final Audit Report	                                                               ED-OIG/A05-D0028




                                        AUDIT RESULTS

Finding No. 1 The Academy Charged Unallowable Costs to the PCSP Grant

For the project period, the Academy charged $20,5192 to the PCSP grant for costs that
were unallowable. We reviewed expense descriptions recorded in the Academy’s
accounting records. We also judgmentally selected 13 expenses totaling $109,263 from
the 134 expenses totaling $159,485 charged to the PCSP grant for the project period. We
reviewed invoices and cancelled checks supporting these 13 expenses. Our review of the
expense descriptions, invoices, and canceled checks disclosed that the Academy charged

1. 	 Eight expenses totaling $15,186 for costs incurred prior to the start of the grant award
     period (August 1, 2001). One of the eight expenses totaling $5,408 consisted of
     prepaid construction costs that were refunded to the Director but not documented in
     the Academy’s accounting records. Four of the eight expenses totaling $7,200 were
     for fees paid to a teacher exchange organization (see number 2).
2. 	 Six expenses totaling $11,250 for fees paid to a teacher exchange organization hired
     by the Academy to facilitate hiring teachers from foreign countries. We discussed
     this type of expense with a program official who informed us that these costs would
     not be an allowable use of PCSP grant funds.
3. 	 One expense totaling $1,283 for a payment to a psychologist for student evaluations.
     This expense should have been paid with other funds.

According to 34 C.F.R § 75.703, “A grantee may use grant funds only for obligations it
makes during the grant period.” In addition, 34 C.F.R. § 75.702 and 75.730(b)3 state that
a grantee shall use fiscal control and fund accounting procedures that insure proper
disbursement of and accounting for federal funds. Pursuant to Office of Management and
Budget, Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A,
Section A(2)(g), a grantee must keep records that fully show how it used federal funds.

The Elementary and Secondary Education Act of 1965, as amended by the Improving
America’s Schools Act of 1994, Title X, Part C, Section 10304(f)(3), and the Charter
School Expansion Act of 1998,4 allows charter schools to spend funds for activities
related to post award planning and design of the educational programs and initial
implementation of the charter school. Activities related to initial implementation may
include (a) informing the community about the school, (b) acquiring necessary equipment
and educational materials and supplies, and (c) acquiring or developing curriculum
materials. Charter schools are allowed to pay for other initial operational costs not met
by other sources provided that those costs are directly related to the intended purpose of

2
  Includes $15,186 charged to the PCSP grant before the Academy received its award from ED, $11,250 in

fees paid to a teacher exchange organization (less $7,200 included in the $15,186), and $1,283 for 

contracted services that were charged to the PCSP grant. 

3
  Unless otherwise specified, all regulatory citations are to the July 1, 2001, volume. 

4
  The law was further amended by the No Child Left Behind Act of 2001, Title V, Part B. 



                                                   2

Final Audit Report	                                                              ED-OIG/A05-D0028


the grant. The intent of the PCSP grant is to pay for necessary items and services that
would support the initial implementation and operations of the school while also allowing
the school to become financially independent.

The Academy expended funds on unallowable costs because it did not have policies and
procedures in place to provide reasonable assurance that PCSP funds were expended for
activities that were allowable under the law. Instead, Academy officials relied on their
own interpretation of the charter school law when expending PCSP funds. The costs we
identified as unallowable were not included in the Academy’s PCSP grant budget. Had
Academy officials reviewed their PCSP grant budget or contacted an ED charter school
program official before incurring these costs, the Academy may not have expended PCSP
funds on unallowable costs.

Because Academy officials charged costs to the PCSP grant before receiving the PCSP
award and used PCSP grant funds to pay for general operational costs, the Academy was
unable to use those funds to purchase items and services that would increase the chances
of the Academy becoming financially independent.

Recommendations

We recommend that the Chief Financial Officer, Office of the Chief Financial Officer, in
conjunction with the Deputy Under Secretary, Office of Innovation and Improvement,
instruct the Academy to

1.1     	refund $19,5345 to ED; and

1.2 	   develop and implement policies and procedures to provide reasonable assurance
        that ED funds are expended on costs that are allowable under the law.

Auditee Comments

The Academy recognized that it needed better financial controls during the project period
and stated that it has developed policies and procedures to prevent any future incorrect
expenditures. However, the Academy generally disagreed with the finding, commenting
that it expended PCSP funds in a timely manner, for the design of the Academy, and for
serving students consistent with its curriculum.

The Academy stated that it believed that it used PCSP funds in a timely manner even
though the funds were expended prior to the grant award date. The Academy contracted
with contractors to perform work on the Academy’s facilities to ensure that it was in
compliance with the Americans with Disabilities Act and to gain a certificate of
occupancy. Most of the work commenced and was paid for after the award date. The
Academy stated that it could not have opened unless it used PCSP funds for construction

5
 The Academy charged $159,485 to the PCSP grant, $985 more than the $158,500 it had available for the
project period. Therefore, we only recommend recovery of $19,534 ($20,519 in unallowable costs less
$985).


                                                  3

Final Audit Report	                                                       ED-OIG/A05-D0028


costs prior to the award period. In an amendment to the Academy’s written response to
the draft audit report, the Director provided documentation supporting the Academy’s use
of PCSP funds prior to the award period. The Director also commented that the company
hired to perform the construction work at the Academy reimbursed him at the direction of
the Academy for the unused retainer amount of $5,408. This was done because the
Director previously loaned the Academy money

The Academy commented that it used PCSP funds to hire a teacher exchange
organization to assist them with attracting, recruiting, and hiring educators that had an
emphasis in mathematics and science. The Academy hired this organization because
Arizona was suffering from a severe mathematics and science teacher shortage. This
organization assisted the Academy to ensure that it hired the most qualified and
competent staff for the open positions at the Academy.

The Academy originally stated that using PCSP funds to pay for a psychologist was an
allowable use of PCSP funds. The Academy stated that it hired the psychologist to
provide services unrelated to special education needs (testing specifically in the areas of
mathematics and science, consistent with the Academy’s curriculum). In an amendment
to the Academy’s written response to the draft audit report, the Director stated that the
Academy made an error when it stated that the psychologist did not perform special
education services for the Academy. After further review, the Academy determined the
psychologist was hired to perform special education services.

OIG Response

We reviewed the Academy’s comments and modified our finding. However, we did not
change our position that the costs charged to the grant prior to the Academy’s award
(payments to the Director, the teacher exchange organization, and a psychologist) are
unallowable.

• 	 Because the Academy was not able to provide documentation accounting for $5,408
    paid to the Director from an Academy contract vendor, we do not have assurance it
    was used for allowable purposes.

• 	 The Academy did not provide convincing evidence supporting that it had a difficult
    time hiring mathematics and science educators on its own. This cost was not an
    initial implementation cost and should not have been paid with PCSP funds.

• 	 The Academy used PCSP funds to pay for a psychologist to perform special
    education services for the Academy. We reviewed a copy of the invoice that the
    Academy provided us. This invoice shows that the psychologist performed special
    education consulting services that consisted of file reviews, legal compliance issues,
    program development, individualized education program meetings, and re-
    evaluations for Academy students. Special education services are an ongoing
    operational cost that should have been paid with other sources of funding.




                                             4

Final Audit Report	                                                                 ED-OIG/A05-D0028


                                           BACKGROUND

The purpose of the PCSP is to provide grants for the planning, design, and initial
implementation of charter schools created by members of the local community. Grants
may be made for a period of up to three years. Funds may be used to plan and design the
education program of the charter school and evaluate the effects of charter schools.

Charter schools are governed by the charter school legislation enacted in the Elementary
and Secondary Education Act of 1965, as amended by the Improving America’s Schools
Act of 1994, Title X, Part C, Section 10304(f)(3), and the Charter School Expansion Act
of 1998.6 Charter schools that receive a grant directly from the federal government must
also adhere to regulations listed in 34 C.F.R. Parts 75, 82, and 99.

The Daisy Education Corporation (d/b/a Sonoran Science Academy) received its charter
from the Arizona State Board of Education and opened in September 2001. The
Academy applied for a PCSP grant and received its award from ED on August 10, 2001.
The grant provided the Academy with startup funding for a three-year period. During the
project period (August 10, 2001, through June 30, 2002), the Academy received
$158,500 in PCSP grant funds.

                        OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if the Academy expended ED funds
according to the law and applicable regulations. For the purpose of this report, our audit
covered the PCSP award ED made on August 10, 2001, for $158,500 and costs charged
to the grant for the project period.

To accomplish our objective, we

•	         interviewed the Academy’s Principal;
•	         reviewed accounting records and identified 134 expenditures totaling $159,485
           charged to the PCSP grant;
•	         judgmentally selected 13 expenditures totaling $109,263. We selected large
           expenses and/or those with cost descriptions that, in our opinion, were
           inconsistent with the intent of the PCSP grant; and
•	         reviewed supporting documentation (invoices and canceled checks) to determine
           if the 13 expenses were allowable and supportable. During our testing, we
           identified 2 expenses totaling $4,050 for teacher exchange service costs that were
           charged to the grant. After determining that the costs were unallowable, we
           reviewed the Academy’s accounting records for payments to the same
           organization. We identified 4 additional expenses totaling $7,200 for teacher
           exchange service costs that were charged to the grant for the project period.




6
    The law was amended by the No Child Left Behind Act of 2001, Title V, Part B.


                                                     5

Final Audit Report                                                       ED-OIG/A05-D0028


We also relied, in part, on computer-processed data the Academy maintained using
QuickBooks© software. We compared the data with information from ED’s Central
Automated Processing System. We also compared supporting documentation (invoices
and canceled checks) with the Academy’s computerized data. Based on our tests, we
concluded the data were sufficiently reliable to be used in meeting the audit’s objective.

We performed our audit work between December 2002 and June 2003. We visited the
Academy on December 9, 2002, and discussed the results of our audit with the
Academy’s Principal on March 21, 2003, and a representative of the charter holder on
June 25, 2003.

Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of audit described above.

                     STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we did not assess the adequacy of the Academy’s management
control structure applicable to all ED awards because this step was not necessary to
achieve our audit objective. Instead, we relied on testing of the Academy’s compliance
with the PCSP law and applicable regulations. Our testing disclosed a material weakness
in the Academy's management controls over PCSP awards. The Academy did not have
written policies and procedures in place to provide reasonable assurance that PCSP funds
were expended according to the law and to prevent PCSP funds from being expended
prior to the project period. This weakness is discussed in the AUDIT RESULTS section
of this report.

                           ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report, represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
ED officials.

If you have additional comments or information that you believe may have a bearing on
the resolution of this audit, you should send them directly to the following ED officials,
who will consider them before taking final Departmental action on this audit.


                       Jack Martin, Chief Financial Officer
                       Office of the Chief Financial Officer
                       U.S. Department of Education
                       400 Maryland Avenue, SW, Room 4E313
                       Washington, DC 20202




                                             6

Final Audit Report                                                         ED-OIG/AOS-D0028


                       Nina Shokraii Rees, Deputy Under Secretary
                       Office of Innovation and Improvement
                       U.S. Department of Education
                       400 Maryland Avenue, SW, Room 4W317
                       Washington, DC 20202

It is ED's policy to expe~ite the resolution of audits by initiating timely action on ther:­
findings and recommendations contained therein. Therefore, receipt of your comments
within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by
the Office of Inspector General are available to members of the press and general public
to the extent information contained therein is not subject to exemptions in the Act.

                                               Sincerely,




                                               Regional Inspector General
                                               for Audit


Attachment




                                               7

Attachment


                                                                                                                     l l'!JWI ... Rd
                                                                                                                     Toooon, AZ 15141
                                                                                                                     _,(S1O)79'I'9I36
                                                                                                                     Pu ~'lO)
                                                                                                                          S12.(1nll
                                                                                                                     E-m>;I; ~
    Excellence in public education
    £rce/lence                                                                                                       Web:   lctp;J/WWW~.Of'&




      Sonoran Science Academy
           Oclober 6, 2003
           October

           Mr. Richard Dowd
           Regional
           Regions l V    InsptI:lOr General
                     V - 1nsp«lOr
           US Department
               Departmenl of Education
                                Educalion
           Office of the Inspector
                         Inspeclor General
           III Norlh
               Nonh Canal
                      Canal,, Suite
                              SU;le 940
           Chicago.IL 60606
           Chica20,IL

           Dear Mr. Dowd,
                    Dowd.

           This response comes in follow up 10
                                            to the Draft Audit
                                                         Awlil RtpQIt submilied by you on
                                                               Report submittN         On September 9, 2003.
                                                                                          Scplcmber9,

           Audit Results
           Audil Resulu

           In reference  to your findings.
              ..,ferencc 10                  il is my understanding lhal
                                  findings, it                                           ct...mr Schools
                                                                         that the Public Charter s"hoots Gran,
                                                                                                           Granl;'is designed for planning, deoign
                                                                                                                                               de!oii" and
           implementation of    DeW chaner
                             ofnew    charter :ocboob.
                                                "",boob. As such, it il is vinually
                                                                           virtually impossible for a :ocbool
                                                                                                      school !O
                                                                                                              to receive an award nolice
                                                                                                                                     noticc on August
                                                                                                                                                Augusl
           10.2001        exp<:<:l that
           10,2001 and expect      thai :OChool
                                        school to be f",andaUy      viab~ and operational for that
                                                      fllUtl>Cially viable                            "",hool year. This
                                                                                                 thai :ocbool        Th.is il   l'undamt-ntal fulw
                                                                                                                           is a fulldarmntal  flaw within
           the Public Chaner
           Ihe         Chane, School PnJinlm.
                                          PT\liflIm.

           lfSonoran
           IfSonoran Science Academy W«e  were 10 wail unlil
                                                       until award notice
                                                                   norice In     ~i mplementalion of the chaner
                                                                          to} be "implementation                  school"' Our
                                                                                                          clw1er "",hool"  O}UJ :ochool.imply
                                                                                                                                school simply
                           <rpened. In addilion
           would not have opened,      addition 10}
                                                10 the CQ!Uideration O}fthe
                                                       consideralion of the fol1nwing
                                                                             following respC>1ISeII.1 would TC<tuesl
                                                                                        respClD5e3, [would  reque,,, lhal
                                                                                                                     that alhoroullh
                                                                                                                          a thorough view be
           conducted of the nalure
                            nature and intention
                                        ifHention of the program.

           Hem ~ Il
           Item
           [I is our belieflhal
           [t        belief that 531
                                 531,050
                                     ,050 of
                                          nf funds in quesrion was expended in aI limely
                                                      question wu                    timely manner. Work was performed by a contractor
                                                                                                                                   conlra<;lor 10
                                                                                                                                               to
           ensure compliance with the Alncrican's
                                          American·, with Disabilities Act   all well
                                                                         ACI as           to gain the certificate
                                                                                       as!O
                                                                                  ~11 as                          nf occupancy. Though bids
                                                                                                      certiticale of
           We-rl' solicited
           were   soliciled prior
                            priorto            nocicc, most of the work
                                  10 the award notice,                    commenced and was pU:I
                                                                    wurk CQDIllICIIC(:(!          paid for after the .wan.!. I do sclrnowtedge
                                                                                                                     award . [do  acknowledge thatthai
           ID(Ist bidslcslimales for work were received prior!O
           moSi bids/estimates                             prior 10 the award. [n             U,578 was expended prior 10 the official award
                                                                                 In addition, $),578
           ooticc,           ~ unallnwable.
                    all such are
           OOIice, as            unallowable.

           hem #2
           The Sonoran Science Academy places a significanl
                                                          significant focus             science and UIIthematiCI.
                                                                      foeus on both :ociencc                            A~, inherent
                                                                                                      mathematics . Also,     i~nl within the design
           ofour
           of    our i""titution
                     instilulion is the need for.
                                             for a divenoecommunily     (studcnlll, fa.cuhyand
                                                   divene oommunity (students.                     Staff). 11u-ou&h
                                                                                      faculty and Slaff).  l1Irou&h our initial hiring
                                                                                                                                   biring process.
                                                                                                                                          process, "'" were
                        auract, recruit and hire educators
           unable 10 allfaCt,                     educalOrs 10 join our  WlIf. Arizona,
                                                                     OW" staff.                  most $late$.
                                                                                   Ariwna, like mo.1   scales, is suffering from •a severe teacher
           shortage, especially in the areas of
           shortage.                                ",ience and malh.
                                                 of"",ience      math. Therefore, we   ~ acquired the services.
                                                                                                          services of the Amily
                                                                                                                            Amity Organization 10 assist
                                                                                                                                                     assisl
           US in hiring the S\1Iff
           lI:II                                     ~bool year. "Though it is
                               stoff needed for the ",bool                      ill unusual for the educalOrs 10 comecome: from out of the state
                                                                                                                                            stale and out
                                                                                                                                                       OUI
                 the country, ;1
           of 1I.e             il is commnn  p..ctice in our
                                     common practice     OW" conum",ity
                                                              comm""ilY of    Tucson. 1lIrou.gh proper ~b,
                                                                           ofTucaon,                         ~h, it      il will be discovered
                                                                                                                                    diocovered that
                                                                                                                                               thai """,y
                                                                                                                                                    many
           of our hospitals                ulilizc a similar agency
                     hospitab in the area utiliz<:           ogeocy to hire nunlel
                                                                             nurses due 10  In the shortage
                                                                                                   Ihortage jll:lll
                                                                                                             just atas the UniverailY
                                                                                                                           University of M>:nna    him
                                                                                                                                          Arizona hires
            faculty
            facully from    o"~ due 10 the $hOnage
                      !Tom oversees              sbonage and their
                                                                tbeir emphasis on  em :ociencc Ind mathematics.
                                                                                      science and   mathetnalics.

            Thus, wbile
                  while Ihi,  may seem III easy
                         this tnay                        bire a full educational !II.Iffit was not.
                                            eMy task 10 hir'l!                                  not t availed         of the reso=es
                                                                                                               m)'lelfofthe
                                                                                                      n a iled myself        /"C:IOUI'I:e8 made
            Ivailable 10 ensun
            available                               competent statT
                         emUr'l! we had qualified, compeu:nl    staff in order for school
                                                                                   ICbooIIO 10 open and these individuals were inlUUmental
                                                                                                                                  instrumental in thc
                                                                                                                                                  the
                          tu>d deoign
            development and    design of the curriculum   u we usc
                                             curri<:lIlum at     U3C OW"
                                                                      our own.
                                                                          OWD.


            h em ~3
            ltemU
            The :ochool                1,283 oa
                 school expended S I,283             aervice8 or.
                                             00 the serviCC8  of a psychologisl,                          Educatinn needs. II i.
                                                                                  ",,",lated 10 Special Educalion
                                                                    p$ycholngisl, IIM:laied                                     is undersl00d
                                                                                                                                   understood that
                                                                                                                                                thai
                   funds cannot be expended on items the Arizona Oepanmenl
            these fund.-!                                               Department of Educ:lltion
                                                                                         Educslion provides
                                                                                                     pmvides finmciolllllpp<>n.
                                                                                                              finmcillllllpJlOrl. Due In ro the unique
            nature and emph   .. is of our :ochool,
                          empbui.          "",bool, !be psycholoaill was contracted
                                                    the psycltologiSi                     OOndlll;1 testina specifically
                                                                            conllacted to oonduct                           the areas of mathematics
                                                                                                            specificslly in !be           tnalhematic.
                           we~ lllere
            and science Were   lhere was no neodneed forte5ting  "" mandaled
                                                     fortesling Ita  mandated by the Individual with Disabililies
                                                                                                         Disabilitiell Educalion
                                                                                                                       Education Act
                                                                                                                                  ACI (IDEA)      n.e,e
                                                                                                                                      (IDEA)., These
            '"'pensel           us 10
            expenses allowed lI:II     ~rve .Studenl
                                    to serve                    cooMSlent with !be
                                               tudcnl in •a way coDSi.stent      the Struel,,",
                                                                                     SlniCtun of our curncuh"n.
                                                                                                       curriculum, which is quite different
                                                                                                                                     differe.1I from the
            traditional  educatiooal !ellin,.
            trndilional educalional   selling.




                                                                           1
October 8, 1001
OctoberS.  2001
Page l2
Pagt




All of the above were necess;uy
AU                      necessuy items and.'lelVic:es!O                     implementation and operatio"" of 1M
                                       and llCrvkes to suppan the initial implemental;on                         the school while
                                                                                                                              wbile
allowing lhe
          the school
              school 10                     i~ndet11. When the do<m
                     to become f!IWl(:ially independent.              doors opened we had 8ppro~iml!ely
                                                                                           ~pp~imatdy 150     IS{] .students
                                                                                                                     tudents enrolled
           enrollment uceeds 300;n
    t<>day enrollmentexeeeds
and today                      300 in ~ K       · I l. The J>ublic
                                              K·ll.        Public ChanerSchool.
                                                                   Charter Schools Grant W3.'I
                                                                                         was eritiu)
                                                                                               critical to the success
                                                                                                               SUC<:eSS and growth of
    organiUltion .
our organization.

  ~ize everything WlllI
I =ognize               was IlOl.  OOM perfeclly; however, we have had many failed attemptS ~t
                              DOl done                                                                 al communicaling
                                                                                                          communicating with !hethe
Program Office  .. as !he
          Officers    the Departmenl     of Education. Our guid/lnce
                           Department afEducation.            guidance for !hethegrant
                                                                                  grant came from Mr. Rik Rile l.8mendorfer  at tbe US
                                                                                                               Lamendorfer 81thoe
D<:panment of Education. Mr. Lanzendorfer initially directed
                                                           dire<:ted us to 34 CFR 74.24{a)-{b),
                                                                                      74 .24(aJ-{h), but did not
                                                                                                              no! malce
                                                                                                                  make menr.ion
                                                                                                                        mention or
communicate 75.703. In ad<!itiOll.
                            addition. S<lnoran
                                       $(lIIoran Science Academy was 10    to have. po:$!   award conference wi!h
                                                                                      posIawllfd                 with our proVl"'
                                                                                                                          program officer,
which never occurred. The nature and P\U'Jl'O!IC
                                            purpose ofth
                                                    of this
                                                         ", conference ia is lO
                                                                             to discuss the details of the grant forupenditure
                                                                                                                   for upenditure and
docurnentat;on. School officials did review !be
OOturnentatMm.                                   the PCSP gralll                             ~ttempted to make COnlacl
                                                            grant budget and repeatedly attempted                  contact with an ED
chaner school program official
                          official to no avail.
                                          avaiL Had this taken place,       ~ bighlypossibly
                                                                  place. it is bi2hlYJKlSllibly I would DOt be drafting this
CI>l'Te.pondence
correspondence today.

                   dwin& the initial granl year we notded betterfmancial
1I recognized thai during                                   beller fmaneial CI,IIIU'I,Iis,
                                                                            controls, policies and pnxedures;    ho~. the
                                                                                                   procedures: however.
                   use funds for geomll
 Academy did not usc             general operational       bul rather funded
                                                      OOSt but
                                         opetIItional 0011                    programs and service.
                                                                      fundN prognunil        services critical
                                                                                                      critic8110
                                                                                                               to the financial
 independence of the school.

It i. our belief, that ifany funds are     to be ~tumed 10
                                       arc 10              to the United SUItes
                                                                          Stites Department
                                                                                 Dfpamnem ofEdllCation,
                                                                                            ofEdllCation. it             tbe sum totll
                                                                                                          il would be in lbe     \(IIaI
of
of$3.578.
    $3,578. Howe,
             However,;t
                     ..... il i.                               funds in the amount noted by lbe
                              is our assertion that returning fundS                         the Auditor but cripple the ""hool
                                                                                                                        school
                                                        potentia! clOiUn'
financial. causing undue financial hardship and potenlial         dosun: of   the sc
                                                                           oftbe  schooL
                                                                                     hool.

It is our
      Our hope and   ~uC5l,
                     ~Ue51.   thaI the appropriate officials =ognizc
                              that                                     that due to limited communication with tht
                                                             recognize!ltat                                   the PCSP officials,
several errors
        tITOl"S were made                                     have structured controls and thorough policies and pr'OCNum
                                     sinte been rectified. We h.a''C
                     nude which have since                                                                       procedures
in pla.ce
   pi""" to
          \(I prohibit any flintier
                             further incorrect
                                      iDCOlTCCt expenditure.  MOI'C<Jver. ill
                                                expenditun: . Moreover,   in "piteofbow
                                                                              spite of bow things may seem. Wi:_ have been able 10
                                                                                                                                to
               ....·hat many !lChools
accomplish ",hat             schools do nol, become financially
                                                      fiMncially independenl,
                                                                  independent, re  ~main
                                                                                     .... in open and continue to grow.

If you HOed                           have questions,
       need additional information or ha,'e qllC3tiom. please do not hesitate 10
                                                                              to contaCt me.

Sincerely.
r~U .f-        •
         vulf -.
Nashui v,Jr­
SoDOran
S<lDOran Science Academy




                                                              2

                                                                                    """"' .. :><,
                                                                                    """"'..       ..... -
                                                                                             ><'01><0     ,.
                                                                                                        ""-"~
                                                                                   2lj!W,.. U
                                                                                   llj!WI   lI.d
                                                                                   T..aon, AZAZ1$7.,
                                                                                                . S7.,
                                                                                   i'hono:
                                                                                   f'hono: (i10)197-!1116
                                                                                           mO)197-'JIJ6
                                                                                   h.,(!2Q)
                                                                                   F          jn~ ' 6
                                                                                     ..:(!20) 172.0,'
                                                                                   ~ :; iofo1i!dJiupdyopjo<l..!J
                                                                                   E-<Joad joWoid.iu¢yoIIiOll Q;IJ
                                                                                   W,~· 1InF
                                                                                   Web: ~np 1i_
                                                                                             : II_., _!Co<l,,,,~
                                                                                                     _Kod"" ~ ,OtI
                                                                                                                 .OtI




10/~2oo3
lo/~a003

Mr. Rlchard Dowd
~nal V - Inspector Genual
Regiollal
US Department
    Depanment of ofEdueation
                    Education
Office of the Inspector
              bUlpe<:lor Gelleral
III North Canal, Suite 940
ChIcago, 1160606                                        AMENDMENT

Dear Mt.
     Mr. Dowd
         Dowd:,




        -
Through
ThroU&h [liquify
           Inquiry aDd funher
                       furtherinve!;ligatlon,
                                investigation, we
                                               _ have detennined that
                                                                   tbalsome
                                                                       some oflbe
                                                                             of the earlier amounts
                                                                                            amounD given
                                                                                                    givell ...
                                                                                                           "'<-eTe
                                                                                                               o!Te
inco~t. 11terefore,
inCOITel:I. TberdOl1!, plene
                        please accept             u.n
                               lccept this letter I$                  OUTletter dated Octooo
                                                     . n amendment to our             October 14, 2(0).
                                                                                                  2003.

        First,                               ,in
                                             , !n Item.
                                                  Item.'1
                                                        f1 we referenced


~:~~'.~
:~~"' .>~"~O~"'~.~Tho,;';;~""
   ''~'';O'~'~.~Th~';;''"" who
who dl5pensed
       dltpensed the funds
determined that for each
amount was

                                                                                                                                  todD
                                                                                                                                  to do


        III                note thlt
        [n the end, please lIote             Sclence, ~demy WlIS
                                 that Daisy Sciencc,A,(;ademy     _5 reimbursed      ho,ooo on 8/
                                                                     reimbul'Kd $20,000             24/ 01 and $5,407.79
                                                                                                  8/24/01      $50407·79
on 3/
   3/13/0',;/.              balance, ~" iz;
      13/02 therefore, the ba)aru:e,              is $2($;1-21.
                                                      $2(;$9;1-21. Also,  belqgthat it ...
                                                                    Alsoi beiqglbat       -as the amount ch06eIl
                                                                                        "''as             ch06eJl and
                                              ,~ lisJeq
    thee individual itenu
not th              item5 that  you chee;
                          that)'O\l
                                 ~        ,.,_;~
                                    choe; -
                                          ,-          lis.t~ "iI,bmkdOwnof
                                                             iI,b~of ihose
                                                               .            ,  , -. : expenditures totaling $~.59Z.21.
                                                                              those
                                                                            ",,:
                                                                                      expenWtur!:Ii tolaling S24.59<!.;!I.

                                                        " '.

                                                                                                                 t,-,,-,
                                                                                                                 t,  ,..'·
                                                                                                                  , >
                                                                                                       1000.00
                                                                                                       1000.00 '      > .'0'• ,
                                                                                                       600 49- ,.'
                                                                                                       6oo4.i

                                                                                                           .00
                                                                                            -,   '-.                                  ,"
                                                                                            ,"                                       .,.




          Iota)          11881,52                     '"
                                                      '1t2!La,60




                                                 3

                                                                                                                                       -   I

OcIobu 17. 2003
Pag~2




                                                                                                                              ''"
                                                              Bor.nz:i C()nceming
                Finally, to the matter discussed by Frank Boenzi       collceming the $1,283. check         payable 00 _
                                                                                                   cl>ec:k payableto
         ~,School
         _ • School         Psychologm.. Earlier expl.Dltion
                            Psychologm            explalUltioD"-u ..-as communicated in efTOr and thllll  thm written to you in
         error. After further investigation ind  ~pt of a photocopy orthe
                                             and receipt                                   the check was wrltten
                                                                             of the item, thecheclt            written as
                                                                                                                        lIS payment
                                                                                                                            paymrull for
                             ~rvice5. We admit that as moth
         Special Education service5.                        much as we__    re tl)'illg
                                                                          were            StAy in oompliauce,
                                                                               t')'ins 10 Stay      oompliance, a small amount of
             funds we belieo.-ed
         the fun&                we rould II$
                       belieY@<lweeould        ~ an atel1lliOIl
                                          use as     o::1ItcDSion tothe
                                                                  rothc other funds,    such u
                                                                                funds,!uch   a.'i in petrollDei.
                                                                                                     perronnel. We were IlOt    IIOt
         aware that we could
         aW8Il!         oould DOl
                               not use these fuDd$                                   S~mmenl ha,d already
                                             fundll for expenditures where the g~mmeDt                     I.IJli!ady supplied funds to
         ~ such
         c:over 5uch expenses.
                 Photocopies of allaU documentat
                                       documenuliollS       question will be forwarded to
                                                    ions in questioll                        to~u.
                                                                                               you, except               $1,2S3. in
                                                                                                    exc.ept for the item $1,283.
                     BoetIti aIreadyhu.
         which Mr. Boenti     already has . We hope thai    we have
                                                        that_  ha~ 5ufficienlly    _ _ red all afyour
                                                                      sufficiently an.......ered            qum:iollllalld thai
                                                                                                   of your quemolllll.nd   that)'Ou
                                                                                                                                you
         win            we did stay in compliance
         will find that WI"              compli~ for Ihe  the mOlit
                                                              mOI;l part wit
                                                                          withh the audit requirements. lfyonIf you should have any
                  questiollll, picllSe
         further questions,            f~l free 10
                               please feel      to call me any time at 520-247-1688.
                                                                        5:1:0-241' 1688.

         Tba.ak you for your time and consideration.
         1hank

         S1ncerdy,

        ,v"-"""\\'
        , ~~uhlYurt         "4 r Jr
          Director, Sonon.n Scien~ Academy
          formerly, O.1sy Science Academy




                                                            4

                                                                                                        -.0_-",-
                                                                                                        """""""--"I-
                                                                                                        :us!
                                                                                                        US ! "'
                                                                                                             .... .... 1I.d
                                                                                                                       1t.oI
                                                                                                         T_AZ"J_l
                                                                                                        T_AZI'          ''1
                                                                                                                 ('~ ) m-91)6
                                                                                                         Pbotot: (mlJ91-91)6
                                                                                                         Pboftt:
                                                                                                        1D.:(U01    S7HI'16
                                                                                                        1a.:(UO) '12_
                                                                                                        [E4OAll:
                                                                                                          .-ii, ..  8t9dej., seine"
                                                                                                                  • ...."Hoc·  ...JICI
&alleltCe 'If
Ur;cll,fIC'    public uJut:Dtion
            ,n pI/bIll! uJut:Qt lOll                                                                    w .~_.
                                                                                                        W.~  ._ .
                                                                                                                           1

                                                                                                                                  1 ,.....
                                                                                                                                  ' S ....




                    1012712003
                    101271200)

                    Mr. Richard
                        Ricba.rd Dowd
                                 Oowd
                    bglonal V - lmpeI:tor
                    1tegI0nal               Genen.l
                                 lrupe<:tOr Gellf!ral
                    US Department of Education
                    Office of the I nspectOT
                                    nspectOf Genera]
                                             General
                    HI North CIIna),
                               CIlia), Suite 940
                    Chicago,, D 60606
                    Chic.so

                    Dear Mr. Dowd.:
                    Our      Dowd:

                         resPOIIR 10 youz
                    III responsoe     your inquiry aboul            m mbunemtnt eheek
                                                      abcNl the mmbunement            check , 17584,    da~ 3113/02
                                                                                                 17584. dated   3113102 in the all10Wlt
                                                                                                                                   alDOUD.t af
                                                                                                                                             of
                    $5407.19, it....,
                    $5407.79,   ft ><u !lOt     ilIteDdons to ti.kc
                                       DOt our ilIteradons             p~tnt fuods
                                                                ti..ke JO''eI'lImeot                      purp<lI5e. In !act,
                                                                                                 my own PlllJIOK.
                                                                                     funds for In)'                                      ~r
                                                                                                                              lYe have newer
                                                                                                                        fact, I've
                    reeeived II~.
                    received     Wity. _        made the died:
                                                           c:bec.k ~ble
                                                                     ~b1e to me at       tchooI.'s request. It was
                                                                                      It 5ChooI's              wu a way (or for the school.
                                                                                                                                     lCbool. to
                    l"f:imbuQoe myself for funds
                    mmhurJe III)'Sdffor           that't had P~l.l!ly
                                            flmda that        previously loaDed    to Daisy
                                                                            loaned 10  tniS)' Science Academy.

                    Rtillw.n"
                    Rnli!iJla; DOW,     regm that the
                                now, I regret                                     wu not the proper .....
                                                          way that we handled It WIIS
                                                      the....,.                                                  ludit ltIn.
                                                                                                       WIlyy for audit trl.n. Our Mool.ll1t
                                                                                                                                   Aeoount
                    Quick Report wil1
                                    will. $how   thlt the~ had beep
                                          show thai             been many 1oaD5
                                                                            IoaIIS to luppon              until we reWYed fundiD&.
                                                                                      Iup\>Ort the school UlltII_1fteiv1"Jd   fulldiDg. At
                        tb:ne it w
                    the time      ... just a~ WIly
                                 wu                                 ~imbulX some of my
                                              way for the school to l1limbune           my own personal
                                                                                                 penonal funch.
                                                                                                          funds.




                                                                    5

